IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-157
EDWARD A. CANIGLIA, PETITIONER
v.
ROBERT F. STROM, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Acting Solicitor General, on behalf of the United States,
respectfully moves that the United States be granted leave to
participate in the oral argument in this case as amicus curiae
supporting respondents and that the United States be allowed ten
minutes of argument time.

Respondents have agreed to cede ten

minutes of argument time to the United States and accordingly
consent to this motion.

2
This case presents the question of a government official’s
ability under the Fourth Amendment to address a serious impending
safety threat through a warrantless seizure of a potentially
mentally unstable person and an entry into his residence for the
limited purpose of removing firearms.

The United States is filing

today a brief as amicus curiae supporting respondents.
The United States has a substantial interest in the resolution
of the question presented.
are

local

police

The respondent officials in this case

officers,

but

the

question

of

a

government

official’s authority to make a warrantless entry into a residence
in a dangerous situation will affect federal officials as well.
Federal officials make warrantless entries into residences in a
variety of circumstances that pose a threat to health or safety.
The federal government also prosecutes cases in which state or
local officials undertaking such actions may have encountered
evidence of a crime.
The United States has previously presented oral argument as
amicus

curiae

in

cases

concerning

application of the Fourth Amendment.

the

interpretation

and

See, e.g., Kansas v. Glover,

140 S. Ct. 1183 (2020); Birchfield v. North Dakota, 136 S. Ct.
2160 (2016); Kentucky v. King, 563 U.S. 452 (2011).

And it is

scheduled to do so again this Term in Lange v. California, No. 2018 (oral argument scheduled Feb. 24, 2021).

In light of the

substantial federal interest in the question presented, the United

3
States’ participation at oral argument would materially assist the
Court in its consideration of this case.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
FEBRUARY 2021

